       RESOURCES OF DOD ADJUDICATION FACILITIES



Report No. D-2001-008                October 30, 2000



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at: www.dodig.osd.mil/audit/reports or contact the Secondary
  Reports Distribution Unit of the Audit Followup and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ASD(C3I)              Assistant Secretary of Defense (Command, Control,
                         Communications, and Intelligence)
CAF                   Central Adjudication Facility
CCMS                  Case Control Management System
DCII                  Defense Clearance and Investigations Index
DSS                   Defense Security Service
JPAS                  Joint Personnel Adjudication System
NACLC                 National Agency Check with Local Agency Checks and Credit
                         Check
OPM                   Office of Personnel Management
DISTRIBUTION:

UNDER SECRETARY OF DEFENSE (COMPTROLLER)
ASSISTANT SECRETARY OF DEFENSE (COMMAND, CONTROL,
COMMUNICATIONS, AND INTELLIGENCE)
GENERAL COUNSEL OF THE DEPARTMENT OF DEFENSE
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT
AND COMPTROLLER)
DIRECTOR, DEFENSE INTELLIGENCE AGENCY
DIRECTOR, DEFENSE SECURITY SERVICE
DIRECTOR, NATIONAL SECURITY AGENCY
DIRECTOR, WASHINGTON HEADQUARTERS SERVICE
DIRECTOR, JOINT STAFF
NAVAL INSPECTOR GENERAL
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
                        Office of the Inspector General, DoD
Report No. D-2001-008                                                    October 30, 2000
   (Project No. D1999-AD-0079.01) (Formerly Project No. 9AD-0046.01)

                    Resources of DoD Adjudication Facilities

                                  Executive Summary

Introduction. This report is the fourth in a recent series of audit reports addressing
security clearance and access issues. The audit became a congressional request in
March 2000 when the Chairmen of the Senate and House Committees on Armed
Services requested further review of the security clearance process.

Objectives. During our audit to determine the status of actions taken within DoD
relating to access reciprocity between special access programs, we identified problems
with obtaining security clearances that affected individuals’ access to special access
programs and other DoD operations. This report addresses the resources required to
adjudicate security clearances efficiently and effectively. See Appendix B for prior
coverage.

Results. The number of cases requiring adjudication was rising at a rate faster than
most central adjudication facilities’ ability to process adjudicative decisions in a timely
manner, because the facilities’ resource requirements had not been fully identified and
budgeted. Without corrective action, obtaining a security clearance could become an
increasingly lengthy process for DoD personnel and contractors and DoD may be
subjected to a higher risk of compromise. For details of the audit results, see the
Finding section of this report.

Summary of Recommendations. We recommend that:

     • the Directors and Chiefs of the DoD eight central adjudication facilities
       determine the resources required, considering all factors that affect the
       adjudication and appeals processes;

     • the Secretaries of the Army, the Navy, and the Air Force; the Chairman of the
       Joint Chiefs of Staff; and the Directors of the Defense Intelligence Agency, the
       Defense Office of Hearings and Appeals, the National Security Agency, and the
       Washington Headquarters Service provide sufficient resources to adjudicate and
       process appeals for the projected security clearance requests;

     • the Assistant Secretary of Defense (Command, Control, Communications, and
       Intelligence), in conjunction with the Directors and Chiefs of the eight central
       adjudication facilities, analyze the impact and determine the appropriate
       implementation date for the Joint Personnel Adjudication System; and
     • the Under Secretary of Defense (Comptroller) and the Assistant Secretary of
       Defense (Command, Control, Communications, and Intelligence) review the
       DoD Components’ budget submission to ensure that the DoD budget for
       FY 2002 and outyears enables the central adjudication facilities to meet
       forecasted workload requirements.

Management Comments. The Under Secretary of Defense (Comptroller); the
Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence); the Army; the Air Force; the Defense Security Service; the National
Security Agency; the Joint Staff; and the Washington Headquarters Service generally
concurred with the finding and recommendations. The Navy took exception to the
recommendation to analyze all factors and determine the resources required, stating that
the Most Efficient Organization Study completed in July 1999 already addressed all
factors impacting the workload and resources. In addition, the Navy called attention to
recent program resource increases. The Defense Office of Hearings and Appeals and
the Defense Intelligence Agency did not comment on a draft of this report issued on
August 25, 2000. A discussion of the management comments is in the Finding section
of the report and the complete text is in the Management Comments section.

Audit Response. The Navy comments were not fully responsive to the
recommendation to analyze all factors and determine the resources required. We
acknowledge the significant resource adjustment made by the Navy; however, we still
question whether all workload factors have been considered. The Navy's Most
Efficient Organization Study was based on the problems with the Defense Security
Service Case Control Management System and Enterprise System being resolved and
the Joint Personnel Adjudication System being operational; delays have been
experienced in both areas. We request that the Director, Department of the Navy
Central Adjudication Facility respond to the finding about assessing all factors and
determining the resources required. The Defense Office of Hearings and Appeals and
the Defense Intelligence Agency did not comment; therefore, we request that they
provide comments on this final report by November 30, 2000.




                                           ii
Table of Contents

Executive Summary                                                         i

Introduction
     Background                                                           1
     Objectives                                                           3

Finding
     Issues Affecting Personnel and Resources                             4

Appendixes
     A. Audit Process
          Scope                                                          22
          Methodology                                                    22
     B. Prior Coverage                                                   24
     C. Factors Affecting Personnel and Resources at Each Facility       26
     D. Insider Threat Mitigation                                        27
     E. Report Distribution                                              29

Management Comments
     Under Secretary of Defense (Comptroller)                            33
     Assistant Secretary of Defense (Command, Control, Communications,
           and Intelligence)                                             35
     Department of the Army                                              38
     Department of the Navy                                              39
     Department of the Air Force                                         40
     Defense Security Service                                            44
     National Security Agency                                            45
     Joint Staff                                                         48
     Washington Headquarters Service                                     49
Background
    This report is the fourth in a recent series and discusses the personnel and
    resources required to adjudicate security clearances within DoD. The audit
    became a congressional request in March 2000, when the Chairmen of the
    Senate and House Committees on Armed Services requested further review of
    the security clearance process. The first report discussed the effects of security
    clearances on three special access programs. The second report discussed
    security clearances for personnel in mission-critical and high-risk positions.
    The third report addressed tracking security clearance requests. Subsequent
    reports will address other aspects of the adjudication process, the impact of
    security clearances on special access programs, the status of access reciprocity,
    the Defense Clearance and Investigations Index database, and the acquisition of
    the Case Control Management System (CCMS) and the Joint Personnel
    Adjudication System.

    Security Clearances. Personnel security clearance investigations are intended
    to establish and maintain a reasonable threshold for trustworthiness through
    investigation and adjudication before granting and maintaining access to
    classified information. The initial investigation provides assurance that a person
    has not demonstrated behavior that could be a security concern. Reinvestigation
    is an important, formal check to help uncover changes in behavior that may
    have occurred after the initial clearance was granted. The standard for
    reinvestigation is 5 years for Top Secret, 10 years for Secret, and 15 years for
    Confidential clearances. Reinvestigations are even more important than the
    initial clearance investigation because people who have held clearances longer
    are more likely to be working with more critical information and systems.

    Clearance Requirements. On March 24, 1997, the President approved the
    uniform Adjudicative Guidelines, and Temporary Eligibility Standards and
    Investigative Standards as required by Executive Order 12968, “Access to
    Classified Information.” The investigative standards dictate that the initial
    investigation and reinvestigation for access to Top Secret and Sensitive
    Compartmented Information are the single-scope background investigation and
    the single-scope background investigation periodic reinvestigation, respectively.
    The investigation and reinvestigation for access to Secret and Confidential
    information consists of a national agency check with local agency checks and a
    credit check (NACLC). Executive Order 12968 specifies that a determination
    of eligibility for access to classified information is a discretionary security
    decision based on judgments by appropriately trained adjudicative personnel.
    Eligibility shall be granted only where facts and circumstances indicate that
    access to classified information is clearly consistent with the national security
    interests of the United States, and any doubt shall be resolved in favor of the
    national security.

    DoD Security Clearances. The process of obtaining a security clearance begins
    with a request from a military commander, contractor, or other DoD official for
    a security clearance for an individual because of the sensitive nature of his or
    her duties. The individual then completes a security questionnaire that is
                                         1
           forwarded to the Defense Security Service (DSS) or the Office of Personnel
           Management (OPM). An investigation is assigned to various investigators who
           seek information about the subject’s loyalty, character, reliability,
           trustworthiness, honesty, and financial responsibility. The investigation must be
           expanded to clarify and resolve any information that raises questions about the
           subject’s suitability to hold a position of trust. DSS and OPM send the
           completed investigation to the appropriate adjudication facility, where the
           decision is made to grant or deny a clearance.

           Central Adjudication Facilities. The following eight Central Adjudication
           Facilities (CAFs) in DoD are authorized to grant, deny, or revoke eligibility for
           Top Secret, Secret, and Confidential security clearances and/or Sensitive
           Compartmented Information accesses: Army, Navy, Air Force, Washington
           Headquarters Service, Defense Office of Hearings and Appeals, Joint Chiefs of
           Staff, Defense Intelligence Agency, and National Security Agency. In addition,
           the Defense Industrial Security Clearance Office is authorized to grant security
           clearances to contractor employees.

           Adjudication Process. The adjudication process involves neither the judgment
           of criminal guilt nor the determination of general suitability for a given position;
           rather, it assesses a person’s trustworthiness and fitness for a responsibility
           which could, if abused, have unacceptable consequences for the national
           security of the United States. An adjudicating official must review all the
           information provided by the investigation, resolve conflicting reports, and grant
           or deny the type of clearance sought. Eligibility for access is granted only where
           facts and circumstances indicate that access to classified information is clearly
           consistent with the national security interests of the United States, and any doubt
           shall be resolved in favor of the national security.

           If the adjudicative decision is to deny or revoke eligibility for a security
           clearance, the adjudicator must prepare a statement of reasons. The statement
           of reasons is provided to the individual involved and contains the rationale for
           the denial or revocation, instructions for responding, and copies of the relevant
           adjudicative guidelines from DoD Regulation 5200.2-R, “Personnel Security
           Program,” January 1987. Upon request, the individual must be provided with
           copies of releasable records from the case file. The statement of reasons must
           clearly define the rationale for the denial or revocation with an explanation for
           each relevant issue that is linked to one or more of the 13 adjudicative
           guidelines contained in DoD Regulation 5200.2-R. If a response is received to
           the statement of reasons, the appeals process begins.

           Responsibilities. The Assistant Secretary of Defense for Command, Control,
           Communications, and Intelligence (ASD[C3I]) has primary responsibility for
           providing guidance, oversight, development, and approval for policy and
           procedures governing personnel security program matters within DoD1. The
           ASD(C3I) is responsible for:

1
    The Director of Central Intelligence is responsible for policy, guidance, and oversight of Sensitive
    Compartmented Information.

                                                       2
            • providing program management through issuance of policy and
              operating guidance;

            • providing staff assistance to the DoD Components and Defense
              agencies in resolving day-to-day security policy and operating
              problems;

            • conducting inspections of the DoD Components for implementation
              and compliance with DoD security policy and operating procedures;

            • providing policy, oversight, and guidance to Component adjudication
              functions; and

            • approving, coordinating, and overseeing all DoD personnel security
              research initiatives and activities.

     The Heads of the DoD Components are responsible for:

            • administering the DoD personnel security program within their area of
              responsibility in a manner consistent with DoD Regulation 5200.2-R;

            • assigning a single authority within the office of the head of the DoD
              Component with the responsibility for administering the program
              within the Component; and

            • providing information and recommendations to ASD(C3I) and the
              General Counsel at their request concerning any aspect of the
              program.

     The DSS is responsible for conducting background investigations on military,
     civilian, and contractor employees who require a security clearance, and OPM
     is responsible for conducting background investigations on military and civilian
     employees only. The CAFs’ main responsibility is adjudicating those
     investigations. Although ASD(C3I) has the responsibility for providing guidance
     and policy to the security clearance process, the CAFs are under the direction of
     their respective DoD Components.

Objectives
     During our audit to determine the status of actions taken within the DoD relating
     to access reciprocity between special access programs, we identified problems
     with obtaining security clearances that affected special access programs and all
     DoD operations. Our specific audit objective in this report was to determine
     whether the DoD CAFs have sufficient resources to adjudicate security
     clearances. See Appendix A for a discussion of the audit scope and
     methodology. See Appendix B for prior coverage related to the audit
     objectives.


                                         3
            Issues Affecting Personnel and Resources
            The number of cases requiring adjudication was rising at a rate faster
            than most CAFs’ ability to process adjudicative decisions in a timely
            manner because personnel and resources needed for all CAFs to deal
            with the workload had not been fully identified and budgeted. As a
            result, obtaining a security clearance could become an increasingly
            lengthy process for DoD personnel and contractors and DoD may be
            subjected to a higher risk of compromise.

Factors Affecting the Timeliness of Security Clearance
  Adjudication
     The timeliness of security clearances to be adjudicated is affected by the
     following factors:

            •   overdue periodic reinvestigations,

            •   continuing reinvestigation requirements,

            •   investigations pending at DSS,

            •   investigations by OPM,

            •   Secret and Confidential clearance requirements,

            •   Joint Personnel Adjudication System (JPAS),

            •   Defense Clearance and Investigations Index (DCII),

            •   large percent of workforce to be replaced,

            •   insider threat mitigation,

            •   additional functions, and

            •   issues affecting adjudicative facilities.

     Some of the factors are one-time occurrences, but their immediate impact to the
     workload is significant. Other factors will cause an increase in the workload
     that will continue until the security clearance requirements change. The
     combined effect of the factors will place a burden on the CAFs. The eight
     CAFs need to analyze the effect of each factor and the effect that the
     compilation of all factors will have on their personnel and resource requirements
     in both the short term and the long term. Appendix C shows the specific factors
     that affect each CAF.



                                             4
Overdue Periodic Reinvestigations
           A June 9, 1999, Deputy Secretary of Defense memorandum stated that
           approximately 500,000 of the 2.4 million clearances for personnel performing
           sensitive and important duties within, or for, DoD were based upon overdue
           investigations. The memorandum directed that requests for periodic
           reinvestigations begin to be submitted immediately. On November 30, 1999,
           the Deputy Secretary of Defense established the Personnel Security Overarching
           Integrated Process team to “Pioneer a different path to solve the crisis of the
           continuing personnel security investigations backlog.” On January 20, 2000,
           the Personnel Security Overarching Integrated Process Team reported that
           505,786 periodic reinvestigations were overdue (see Table 1).

                              Table 1. Overdue Periodic Reinvestigations

              Requesting Agency            Top Secret       Secret/Confidential           Total
              Army                          17,367               145,330                 162,697
              Navy                          23,533                 96,665                120,198
              Air Force                     11,407                 30,084                 41,491
              Contractors                   31,999               134,156                 166,155
              Defense agencies               9,975                  5,270                 15,245
               Total                        94,281               411,505                 505,786


           The Air Force, the Army, the Washington Headquarters Service, and the
           Defense Office of Hearings and Appeals obtained approval for additional
           personnel for the increased workload caused by the overdue periodic
           reinvestigations. The Air Force CAF added 22 Air Force Reserve and Air
           National Guard personnel to adjudicate their 41,4912 overdue periodic
           reinvestigations in a 2 year period. The Army CAF had approval to use from 9
           to 16 Army Reserve and Army National Guard personnel over the next 3 years
           to eliminate its backlog. The Washington Headquarters Service CAF had hired
           two contractor administrative support personnel and estimated a need for
           5 additional adjudicators to process the overdue periodic reinvestigations. The
           Defense Office of Hearings and Appeals was hiring 12 adjudicators for 3 years.
           The other CAFs were not authorized additional adjudicators to process their
           increased workload.




2
    The Air Force estimated the backlog of overdue periodic reinvestigations to be 52,000 cases when
    computing the personnel billets required for the personnel adjudication security process.

                                                     5
Continuing Reinvestigation Requirements
     None of the CAFs identified the increased workload that will remain
     permanently as a result of the change in the continuing reinvestigation
     requirement. Previous reinvestigation requirements were set at 5 years for Top
     Secret and 15 years for Secret; Confidential had no reinvestigation requirement.
     The new reinvestigation requirements for Top Secret, Secret, and Confidential
     security clearances are set at 5, 10, and 15 year intervals from the date of the
     previous investigation; therefore, clearances need to be updated at more frequent
     intervals. After the overdue periodic reinvestigations have been updated, the
     continuing requirement will still need to be adjudicated.

Investigations Pending at the Defense Security Service
     The CCMS was intended to expedite case processing at DSS by linking all
     relevant information critical to a background investigation through a series of
     subsystems; however, the CCMS did not operate as intended. Instead of
     expediting requests for investigations and reports to and from DSS field offices,
     system problems caused serious delays in information processing and resulted in
     a dramatic decrease in case openings, closings, and field investigations.
     Consequently, the problems with the CCMS were a primary driving factor in
     the accumulation of 452,188 cases pending at DSS as of June 30, 2000.

     A key DSS productivity goal is to complete the pending cases, as soon as
     possible, and move them onto the CAFs for adjudication. To process
     investigations more timely, DSS was working to improve the CCMS and issued
     five augmentation contracts for contractors to perform the investigations. Also,
     DoD arranged to send civilian and military investigations to OPM, which will
     further increase the timeliness and number of investigations completed, while
     decreasing the workload on DSS.

Investigations by the Office of Personnel Management
     OPM agreed to complete Secret and Confidential initial and periodic
     reinvestigations and Top Secret initial investigations within 75 days, and Top
     Secret periodic reinvestigations within 180 days.

     Civilian Security Clearance Investigations. On October 1, 1999, OPM began
     conducting all security clearance investigations for DoD civilians instead of only
     the initial investigations for Secret and Confidential clearances.

     The 75-day and 180-day investigations conducted by OPM resulted in
     quadrupling the number of cases received by the Washington Headquarters
     Service CAF, which adjudicates civilian Top Secret, Secret, and Confidential
     security clearance requests. Cases received monthly by the CAF increased from
     345 cases in July 1999 to 1,507 cases in June 2000 (see Table 2). The
     Washington Headquarters Service CAF received 3,306 cases in FY 1999 and

                                         6
           12,310 cases in FY 2000 as of June 30. As a result, the Washington
           Headquarters Service CAF had 9203 cases pending adjudication as of June 30,
           2000.

                                  Table 2. Cases Received by the
                               Washington Headquarters Service CAF

                  Received From           July 1999        October 1999         June 2000
                  DSS                         118               221                 299
                  OPM                          65               245                 761
                  Other                       162               452                 447
                   Total                      345               918               1,507


           Military Secret and Confidential Clearance Investigations. The Personnel
           Security Overarching Integrated Process Team recommended outsourcing all
           926,730 Secret and Confidential investigations, except those with overseas
           leads, estimated to be required in the next 2 years, to OPM. The outsourcing
           would allow DSS to focus on the Top Secret and Sensitive Compartmented
           Information investigations. In a letter dated March 31, 2000, the Deputy
           Secretary of Defense implemented the recommendations of the Overarching
           Integrated Process Team, but the letter did not include contractor investigations.
           Therefore, 215,513 Secret and Confidential investigations will not be sent to
           OPM, so that only 711,217 military and civilian investigations were scheduled
           to be contracted to OPM in the next 2 years instead of 926,730 investigations
           (see Table 3).

           OPM conducting the military investigations will cause a similar increase in the
           number of cases received monthly at the CAFs of the Army, the Navy, the Air
           Force, and the Joint Chiefs of Staff to that experienced by the Washington
           Headquarters Service CAF. The significant increase in cases received over a
           short period of time will affect the ability of each CAF to adjudicate them in a
           timely manner. The Navy CAF had 60,345 cases4 pending as of June 30, 2000;
           therefore, an increase in the cases received will also increase the number of
           cases awaiting adjudication and lengthen the time required to obtain a final
           determination. Even the CAFs that do not have cases pending adjudication will
           develop a backlog because they will receive more cases than they can adjudicate


3
    The number of pending cases will increase more rapidly. The vast majority of the original cases
    received from OPM were favorable investigations without derogatory information, and the Washington
    Headquarters Service CAF was processing the favorable cases as quickly as possible. With more
    derogatory cases, which take longer to adjudicate, the number of cases being closed with a final
    adjudicative decision has decreased.
4
    The Navy CAF counts all workload assigned to an adjudicator, but not worked, as backlog. Within the
    60,345 backlogged cases, there are approximately 16,478 clearance investigations to be adjudicated.
    The remaining 44,967 cases are for a variety of investigations pending an adjudicators review for other
    than an initial or periodic re-investigation for a security clearance.

                                                      7
    each day. Once the overdue periodic reinvestigations are completed, the
    workflow from OPM will return to a more steady state.

              Table 3. Secret and Confidential Investigations to OPM

                                                                  Dollars
         Requesting Agency             Cases to OPM            (in millions)
         Army                            289,347                   $63.7
         Navy                            273,472                    60.2
         Air Force                       141,250                    31.1
         Contractors                     215,513                    47.4
         Defense agencies                  7,148                      1.6
          Total                          926,730                  $204.0

         Less contractor requests         215,513                   47.4
          Total to OPM                    711,217                 $156.6


    Security Suitability Investigations Index. All initial investigations performed
    by OPM require the Washington Headquarters Service CAF personnel to enter
    the personal identification data into the Defense Clearance and Investigations
    Index (DCII) after the investigation is closed, rather than DSS personnel
    entering the data when the case is opened. Executive Order 10450, “Security
    Requirements for Government Employment,” April 24, 1953, requires a
    security investigations index covering all persons who have been investigated by
    any department or agency of the Government. OPM records its investigations
    in the Security Suitability Investigations Index, and DoD records its
    investigations in the DCII. The Washington Headquarters Service CAF had
    always entered the personal identification data into the DCII for initial Secret
    and Confidential clearances. However, the addition of the initial Top Secret
    investigations being sent to OPM since October 1, 1999, affected the CAF
    because of the increase in the number of cases requiring input to the DCII. The
    Washington Headquarters Service CAF explained that the impact per
    investigation was not excessive, but compilation of the additional input for all of
    the clearances was significant.

Secret and Confidential Clearance Requirements
    Investigation Requirements Change. A November 10, 1998, memorandum
    from the ASD(C3I) established that, effective January 1, 1999, DSS would begin
    implementing the NACLC for Secret and Confidential clearances as approved
    by the President on March 24, 1997. However, the investigations conducted by
    OPM—the national agency check with written inquiries and credit check or the
    access national agency check with written inquiries and credit check—would
    continue to serve as the basis for Secret and Confidential clearances for DoD

                                         8
    civilian employees. Previously, the investigation for Secret and Confidential
    clearances was a national agency check for the military and contractors.

    The investigative scope change from the national agency check to the NACLC
    immediately affected the CAFs’ workload because there was more adverse
    information to review and adjudicate for each case. The change in the
    investigative requirements to a NACLC for Secret and Confidential clearances
    was one cause for 411,505 Secret and Confidential periodic reinvestigations
    being overdue. However, the additional workload incurred from adjudicating
    more adverse information produced by NACLCs will not decrease after the
    overdue periodic reinvestigations are completed.

    Security Clearances for Navy and Air Force Military Recruits. An entrance
    national agency check is conducted on all enlisted members of the Armed
    Forces at the time of their initial entry and security clearances are obtained
    when required. The entrance national agency check is a computerized check on
    the person’s name only and has no impact on the investigators’ and adjudicators’
    workload unless issues arise. The Navy and the Air Force decided to
    discontinue the entrance national agency check and use the NACLC for the new
    recruits. Their rationale was that the majority of their new recruits will
    eventually need a security clearance, so it is cheaper to conduct a NACLC
    initially, than to run an entrance national agency check, spend money training an
    individual, and then lose them when a clearance is required.

           Security Clearance Implementation. The NACLC implementation for
    new recruits will cause the Navy and the Air Force CAFs to experience an
    increase in their workload because entrance national agency checks require little
    adjudication, while the NACLC contains more information and, therefore,
    requires more adjudicative time. As a result, the Air Force estimated the
    increase to be 34,000 cases per year and authorized 22 adjudicators as
    temporary overhires for FY 2000 and FY 2001. The Air Force also included in
    the Program Objective Memorandum an additional 22 permanent adjudicators
    for FY 2002. Although the Navy CAF requested 21 additional adjudicators for
    FY 2001, the Navy did not program for an increase in adjudicators to handle the
    additional workload.

             First-Term Attrition Rates. General Accounting Office Report
    No. NSIAD-00-146, “Military Personnel: Services Need to Assess Efforts to
    Meet Recruiting Goals and Cut Attrition,” June 23, 2000, states that the latest
    attrition data available indicate that first-term attrition for DoD enlistees has
    reached an all-time high. For enlistees entering the Services in FY 1995 and
    leaving early before the end of FY 1999, the DoD overall separation rate was
    36.8 percent. The early separation of new recruits is costly to the security
    clearance process because more investigations and adjudicative decisions are
    required for new recruits to replace those who leave early.

Joint Personnel Adjudication System
    JPAS is the DoD personnel security migration system for the CAFs and DoD
    security managers and special security officers. The JPAS represents the virtual
                                         9
           consolidation of the DoD CAFs and ensures the standardization and
           reengineering of core personnel security and adjudication processes. The Air
           Force was designated the Executive Agent, and the 497th Intelligence
           Group/Security and Communications Management was designated the Program
           Management Office on July 10, 1996. In 1998, the Air Force converted to the
           new adjudication management system database, SENTINEL KEY, which was
           the prototype baseline of JPAS. JPAS has two applications: the Joint
           Adjudication Management System for the DoD CAFs only, and the Joint
           Clearance and Access Verification System for approximately 20,000 DoD
           security managers and 10,000 industry security managers. BETA testing, using
           live data as a production system, is scheduled to begin September 2000 with the
           95 CAFs and 65 CAF customers. DoD-wide implementation of JPAS is
           expected to begin in February 2001 with the unified commands and Defense
           agencies. During BETA testing, the CAFs will be required to use one-third of
           their total workforce and, for most CAFs, all data will have to be entered twice,
           once into the CAF system and once into JPAS.

           On May 18, 2000, at the JPAS Executive Steering Committee, some CAFs
           expressed concern about the timing of the implementation of JPAS. The Navy
           CAF stated that it had a backlog of 30,000 cases (see footnote 4 on page 7) as of
           March 2000. The CAF was below minimum staffing, and participation of one-
           third of its personnel in the BETA testing would severely strain its resources and
           add to the backlog. As of June 30, 2000, the Navy CAF’s backlog had risen to
           60,345 cases. Therefore, the Navy CAF will not use a full one-third of its staff
           for BETA testing, even though, according to DoD information systems
           professionals and two independent contractors, one-third of the CAF’s personnel
           is necessary to adequately perform a complete system test.

           The Washington Headquarters Service CAF was also concerned that
           participating in BETA testing would strain its resources and add to the backlog.
           The National Security Agency CAF stated that automation did not decrease the
           need for an adjudication staff. In addition, several CAFs must continue running
           dual systems because the JPAS will not replace several unique functions
           performed by the legacy systems; for example, the capability to process and
           enter into the database the screening mission of approximately 25,000 cases per
           year by the Army CAF.

           There was also concern that funding for JPAS may be provided at the expense
           of CAF operations. Program Budget Decision 071, “Washington Headquarters
           (WHS), Office of the Secretary of Defense (OSD), Defense Legal Services
           Agency (DLSA), and U.S. Court of Appeals for the Armed Forces (CAAF),”
           December 1, 1999, directed that the annual operation and maintenance costs be
           provided from the funds previously programmed by the Components for CAF
           legacy systems. As a result, the Deputy Assistant Secretary of the Army
           assessed the entire JPAS implementation bill against the Army CAF. An
           April 19, 2000, memorandum from the Adjutant General of the Army requested
           that the Deputy Assistant Secretary reverse the decision and provide funding.

5
    The National Reconnaissance Office CAF adjudicates only Sensitive Compartmented Information
    access.

                                                  10
     The reason for the request was that the impact to the Army CAF would be a
     reduction-in-force of 23 people, when the Assistant Secretary of the Army
     (Manpower and Reserve Affairs) had recently approved an augmentation of
     16 Reservists to address the overdue periodic reinvestigations.

     As a result of the impact of the Joint Personnel Adjudication System on the
     security clearance process, the Audit of the Acquisition Management of the Joint
     Personnel Adjudication System, Project No. D2001AL-0012, was announced
     September 15, 2000. The audit will determine whether the Joint Personnel
     Adjudication System is being cost-effectively acquired, monitored, tested, and
     prepared for deployment and system life cycle support.

Defense Clearance and Investigations Index
     The DCII is the single, automated central repository that identifies investigations
     conducted by DoD investigative agencies and personnel security determinations
     made by DoD adjudicative authorities. DCII is operated and maintained by
     DSS. DoD Regulation 5200.2-R, “Personnel Security Program,” requires each
     adjudicative determination, whether favorable or unfavorable, to be entered into
     the DCII on a daily basis, but in no case to exceed 5 working days from the date
     of determination. However, when the CAFs do not have access to the DCII,
     they do not have the ability to review all investigative entries on indexed
     subjects, other CAFs’ adjudicative decisions, or to enter their adjudicative
     decisions into the system. Consequently, the cases pile up awaiting input of the
     adjudicative decision in the DCII.

     Availability. The availability of the DCII had been a continual problem since
     DSS converted to the CCMS in October 1998. In addition to the frequent
     nonavailability of the DCII, when the system is available, there are problems
     with connections being dropped and the system being slow. All access problems
     impede the adjudication process. A June 29, 2000, DSS memorandum
     distributed to DSS customers stated that on June 28, the DSS corporate database
     experienced a problem and was not available. The DSS corporate database
     affects the CCMS and the DCII. Availability was restored July 10, 2000. The
     DCII was also down on June 19 and June 26, which meant that DCII access was
     not available for 8 of the 14 workdays available in a 3 week period.

             Security Suitability Investigations Index. When the CAFs cannot
     access the DCII, most also cannot access the Security Suitability Investigations
     Index. A memorandum of understanding between DoD and OPM governs the
     operation and functions involved in the linkage of the DCII and the OPM
     Security Suitability Investigations Index. Authorized DCII users were able to
     obtain a “read only” search of the Security Suitability Investigations Index at the
     same time that they conducted a search of the DCII. Although some of the
     CAFs do have direct access to the Security Suitability Investigations Index, most
     are connected through the DCII. The Washington Headquarters Service CAF
     experienced additional nonavailability because of the DCII connectivity to the
     Security Suitability Investigations Index being down. With the increased


                                         11
     number of investigations being conducted by OPM, access to the Security
     Suitability Investigations Index becomes a greater concern for the CAFs because
     the effect is greater.

             Navy Joint Adjudication and Clearance System. The Navy Joint
     Adjudication and Clearance System, the Navy’s adjudicative database, is
     connected to the DSS corporate database, which includes CCMS and the DCII,
     so that when the DCII is not accessible, the Navy system is not accessible. The
     unavailability of DCII and the Navy Joint Adjudication and Clearance System
     contributed to the increase of cases pending (see footnote 4 on page 7) at the
     Navy CAF from 22,000 on September 30, 1999, to 60,345 on June 30, 2000.

Large Percent of Workforce to be Replaced
     A large percent of the DoD workforce will need to be replaced by FY 2007.
     With the increasing age of the DoD workforce and the growing opportunities for
     advancement in the private sector, the DoD is likely to lose 60 percent of its
     current workforce in the next 7 years. The new hires needed to replace the
     vacated positions will require new security clearances, which will increase the
     normal workload projected for that time period.

Insider Threat Mitigation
     The Chief Information Officer, DoD, issued, “DoD Insider Threat Mitigation
     Final Report of the Insider Threat Integrated Process Team,” April 24, 2000,
     which contains 60 recommendations to reduce malicious behavior by insiders.
     The insider is anyone who is or has been authorized access to DoD information
     systems. Two of the six key elements of a strategy to minimize the impact of
     the insider threat are to seek to reduce the threat by establishing a high level of
     assurance in the trustworthiness of people, practices, systems and programs, and
     to strengthen personnel security and management practices.

     The report makes five recommendations that will directly impact the security
     clearance process. The recommendations establish a Category 1 information
     technology position, which is the equivalent of a Top Secret clearance or
     Sensitive Compartmented Information access, and a Category 2 information
     technology position, which is the equivalent of a Secret or Confidential
     clearance. If implemented, these recommendations would create the potential of
     requiring most DoD and contractor employees without a current Secret or Top
     Secret security clearance to obtain the equivalent investigation and adjudication.
     See Appendix D for additional details.

Additional Functions
     Each of the eight CAFs have acquired additional functions that affect the
     adjudicators’ workload beyond adjudicating security clearances. For example,
     Army adjudicators review security files for individuals being considered for

                                         12
     promotion to Colonel, General Officer, Senior Executive Service, or selected
     other assignments. The National Security Agency was taking steps to outsource
     pieces of its information technology infrastructure. The National Security
     Agency wanted to structure the contract so that the National Security Agency’s
     information technology workers for this infrastructure would want to transfer
     permanently to the contractor. Consequently, the National Security Agency
     CAF has to review as many as 2,000 personnel files by the end of FY 2000 for
     employees to transfer permanently to a contractor. The Joint Chiefs of Staff
     CAF is a full security office, which requires its adjudicators to also perform the
     initial functions of the security clearance process, such as submitting requests
     for investigation. The Secretaries of the Services and the Directors of the
     Defense agencies need to consider the other functions required by the CAFs
     when determining the appropriate staffing level for the CAFs.

Personnel Issues Affecting Adjudicative Facilities
     Issues such as the retirement eligibility of the adjudicators and overtime will
     affect all CAFs. The impact of these issues must be assessed for each CAF.

     Adjudicators Eligible to Retire. The increasing workload for the CAFs will be
     affected by the large percent of adjudicators who will be eligible to retire by
     FY 2005. The CAFs had not hired new adjudicators because of downsizing in
     the past several years. Of the 191 adjudicators in the 8 CAFs, 65 or 34 percent
     will be eligible to retire by FY 2005 (see Table 4).

                     Table 4. Adjudicators Eligible to Retire by 2005

                                        Adjudicators    Eligible to Retire    Percent of
      Central Adjudication Facility     (June 2000)          by 2005          Workforce
      Army                                   56                   11               20
      Navy                                   47                   12               26
      Air Force                              39                   15               38
      Washington Headquarters
      Service                                 11                   9                   82
      Defense Office of Hearings
      and Appeals                              11                  6                   55
      Joint Chiefs Staff                        2                  1                   50
      Defense Intelligence Agency              10                  8                   80
      National Security Agency                 15                  3                   20
       Total                                  191                 65                   34


     Overtime. Several CAFs were addressing the increased workload by
     implementing overtime. For example, adjudicators for the National Security

                                         13
    Agency CAF worked 506 overtime hours in April, 449 overtime hours in May,
    and 530 overtime hours in June 2000 to process only the current workload, not
    to reduce the cases pending. If this trend continues, it would equate to
    5,730 hours over 12 months or 2.75 man-years in overtime. However, because
    of the 2,000 additional personnel security files to be reviewed for the contract
    outsourcing information technology, the CAF estimates that the overtime
    required will at least double. The Washington Headquarters Service CAF
    explored overtime as an option and found that it was not an adequate solution
    because the increased workload is a long-term problem, and overtime for an
    extended period burns out personnel.

Assessment of Adjudicative Personnel Requirements
    A June 15, 1999, ASD(C3I) memorandum stated that Components were
    expected to identify the resources necessary to fund the completion of the
    overdue periodic reinvestigations as well as to accomplish the adjudications at
    the end of the process. In the Deputy Secretary of Defense March 31, 2000,
    memorandum, DoD Components were directed to provide the resources
    necessary to fund the Overarching Personnel Security Integrated Process Team's
    solution of transferring all Secret and Confidential investigations for military
    and civilian personnel to OPM and any additional costs such as adjudication
    support to handle the surge in the required workload.

    Air Force. The Air Force CAF had 39 adjudicators and was bringing 22 Air
    Force Reservists and Air National Guardsmen on board to handle the overdue
    periodic reinvestigations. In addition, the Air Force was hiring 22 temporary
    adjudicators, to be converted to permanent in FY 2002, to assist with the
    increased workload resulting from the change to the NACLC investigation for
    Secret and Confidential clearances and the change from entrance national agency
    check being performed for new recruits to the full NACLC. The CAF was
    restricted by the physical space and the number of computers available, so to
    accommodate the additional personnel, the CAF established a second shift in
    May 2000. The second shift allows the same space and computers to be used
    twice and also allows the new adjudicators’ training to work without the normal
    interruptions of daily operations such as phone calls. The Air Force senior
    leadership acknowledged the importance of the security clearances by providing
    the CAF with the approved funding required to eliminate the overdue periodic
    reinvestigations within a 2 year period, as directed by the Deputy Secretary of
    Defense in a June 9, 1999, memorandum.

    Defense Office of Hearings and Appeals. The Defense Office of Hearings and
    Appeals CAF requested and received approval for 18 temporary overhires for
    FY 2000 and an additional 4 temporary overhires for FY 2001, which would be
    reduced to 13 temporary overhires in FY 2002. The Defense Office of
    Hearings and Appeals issued a personnel vacancy announcement and planned to
    hire 12 temporary adjudicators; the other authorized positions would be a mix of
    Department Counsel and Administrative Judges. The Defense Office of
    Hearings and Appeals’ request was based on an October 1999 requirements
    assessment. The Defense Office of Hearings and Appeals planned to do another
    assessment based on current figures and submit a new request, if necessary.
                                       14
    Services and Defense Agencies. The six other CAFs assessed the impact of the
    overdue periodic reinvestigations; however, they were not provided all the
    additional resources they requested. The senior leadership of the Services and
    the Defense agencies needs to provide adequate support to the CAFs. The
    Heads of the DoD Components are responsible for administering the DoD
    personnel security program within their area of responsibility. However, the
    CAFs did not receive the necessary personnel and resources required to
    adjudicate the increased workload of security clearance requirements. The
    Secretaries of the Services and the Directors of the Defense agencies should be
    aware that the resource requirements at the CAFs need to be reassessed because
    of the operational impact of not receiving security clearances timely and because
    of the congressional interest being shown.

Conclusion
    The number of cases requiring adjudication was rising at a rate faster than the
    CAFs’ ability to process adjudicative decisions in a timely manner. The
    increase in the number of investigations processed through DSS and OPM was a
    positive step in reducing the number of overdue periodic reinvestigations.
    However, the CAFs will be required to adjudicate a significant number of
    investigative cases; therefore, CAF resources need to be reassessed and
    appropriate actions taken to ensure that the CAFs are able to process timely
    adjudicative decisions. If the adjudicative function is not properly staffed and
    results in delays, causing the adjudicators to adjudicate stale information, the
    effectiveness of the adjudicative process also would be impaired. Therefore, the
    CAFs need to assess short-term and long-term personnel and resource
    requirements, and the Services and Defense agencies need to budget for the
    personnel and financial resources needed to accomplish the adjudications and the
    appeals. It is imperative that these issues be considered during the ongoing
    formulation of the Defense budget for FY 2002 and the outyears.

Management Comments on the Finding and Audit Response
    The Defense Security Service commented that it had issued five rather than six
    augmentation contracts. Accordingly, we revised the Investigations Pending at
    the Defense Security Service section of the report.

    The National Security Agency specified that the Director of Central Intelligence
    is responsible for policy, guidance, and oversight of Sensitive Compartmented
    Information. We added a footnote to the responsibilities section to identify this.




                                        15
Recommendations, Management Comments, and Audit
  Response
    1.    We recommend that the Directors and Chiefs of the eight DoD central
    adjudication facilities:

          a. Analyze and assess all factors that affect the adjudication and
    appeals process.

            b. Determine the number of personnel and amount of resources that
    will be required.

    Department of the Army Comments. The Army concurred with the
    recommendation. The Army will assess the resource requirements for the
    factors identified in the report within 60 days of the final report issuance.

    Audit Response. The Army comments were generally responsive, although the
    assessment was needed as soon as the draft audit report was provided in August
    2000.

    Department of the Navy Comments. The Navy took exception to the
    recommendation, stating that the Most Efficient Organization Study completed
    in July 1999 considered and addressed the overdue periodic reinvestigations and
    all other factors impacting the workload and required resources.

    Audit Response. The Navy comment was not fully responsive. Although the
    Most Efficient Organization Study did address the overdue periodic
    reinvestigations, it was based on assumptions used for the projected FY 2003
    workload and was premised on the successful operation of numerous automated
    enhancements. As of September 2000, project management had greatly
    improved, but high risks remain in resolving design problems for the Case
    Control Management System. Further, availability of the Navy Joint
    Adjudication and Clearance System is impacted because it is hosted on the Case
    Control Management System and the Enterprise System server. The study also
    assumed that, by FY 2000, the revalidation of collateral security clearances
    would not be required when individuals arrive at their new commands. This
    assumption was based on the Joint Personnel Adjudication System being
    released in FY 2000 to allow the Department of the Navy Central Adjudication
    Facility customers to perform their own status checks. However, the Joint
    Personnel Adjudication System is scheduled for Beta testing from
    November 2000 to March 31, 2001, with the central adjudication facilities and
    65 customers. Therefore, we believe the assumptions used by the Most
    Efficient Organizational Study are no longer valid for analyzing and assessing
    the resources required by the Department of the Navy Central Adjudication
    Facility, especially in FY 2002. Accordingly, we request that the Navy
    reconsider its position and provide additional comments in response to the final
    report.



                                        16
Department of the Air Force Comments. The Air Force concurred with the
recommendation. The Air Force plans to hire, by November 31, 2000, the
resources necessary through FY 2002. The continuing reinvestigation
requirements will be evaluated at the end of FY 2002 and any additional
resources required will be funded. Additionally, the Air Force is establishing an
electronic capability at the Office of Personnel Management to allow for
electronic submission of investigative requests from Air Force requesters
worldwide.

Defense Office of Hearings and Appeals Comments. The Defense Office of
Hearings and Appeals did not comment on a draft of this report. We request
that the Defense Office of Hearings and Appeals provide comments in response
to the final report.
Defense Intelligence Agency Comments. The Defense Intelligence Agency did
not comment on a draft of this report. We request that the Defense Intelligence
Agency provide comments in response to the final report.

National Security Agency Comments. The National Security Agency
concurred with the recommendation and stated that it had completed an analysis
and determined the number of personnel and the amount of resources required.

Joint Staff Comments. The Joint Staff concurred with the recommendation
and stated that they currently have two trained adjudicators to ensure that
personnel in mission-critical and high-risk positions are cleared in a timely
manner.

Washington Headquarters Service Comments. The Washington Headquarters
Service concurred with the recommendation and stated that it will continue to
evaluate the resource levels of personnel security functions.

Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) Comments. Although not required to comment, the Director of
Security, Office of the Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence), concurred with the recommendation and
stated that for FYs 2001 and 2002 the Army and the Air Force identified
resources to work the periodic reinvestigation backlog; the Navy approved a
plan to provide resources; the Washington Headquarters Service and the
Defense Office of Hearings and Appeals had finalized their resource plans; and
the Defense Industrial Security Clearance Office must develop a plan to ensure
sufficient resources exist to process cases in a timely manner. In addition, the
National Security Council tasked the Secretary of Defense in conjunction with
the Defense Security Service and the Office of Personnel Management to
develop an adjudicative "spend plan" for expected monthly input of
investigations to the central adjudication facilities.

Defense Security Service Comments. Although not required to comment, the
Defense Security Service concurred with the recommendation.



                                   17
2.    We recommend that the Secretaries of the Army, the Navy, and the
Air Force; the Chairman of the Joint Chiefs of Staff; and the Directors of
the Defense Intelligence Agency, the Defense Office of Hearings and
Appeals, the National Security Agency, and the Washington Headquarters
Service provide the resources required for the central adjudication facilities
to adjudicate and process the appeals for the projected security clearance
requests.

Department of the Army Comments. The Army concurred and stated it
would consider additional authorizations if the assessment of the resource
requirements determined that the 16 Reservists authorized were not sufficient.
Also, the Army requested that we recommend that the Under Secretary of
Defense (Comptroller) provide supplemental funding.
Audit Response. We did not recommend supplemental funding because we
cannot prejudge the outcome of the overall FY 2002 budget review, but we
believe that Recommendation 4 meets the Army's concern.

Department of the Navy Comments. The Navy concurred and stated that on
September 15, 2000, funding was provided for 10 additional civilian full time
equivalents and 30 Reservist billets. Billets for 10 Reservists are funded
through FY 2007 with 20 Reservist scheduled for a two-year period. In
addition, six vacancies will be filled.

Department of the Air Force Comments. The Air Force concurred and stated
that it anticipates that any forthcoming requirements will be adequately
addressed by the Air Force. Further, the Air Force had also authorized funding
to perform the adjudication function identified in an October 1999 Air
Intelligence Agency manpower study.

Defense Office of Hearings and Appeals Comments. The Defense Office of
Hearings and Appeals did not comment on a draft of this report. We request
that the Defense Office of Hearings and Appeals provide comments in response
to the final report.

Defense Intelligence Agency Comments. The Defense Intelligence Agency did
not comment on a draft of this report. We request that the Defense Intelligence
Agency provide comments in response to the final report.

National Security Agency Comments. The National Security Agency
concurred with the recommendation and stated that it was analyzing the National
Security Agency Central Adjudication Facility's assessment of the number of
personnel and resources required for the adjudication and the appeals processes.

Joint Staff Comments. The Joint Staff concurred with the recommendation.

Washington Headquarters Service Comments. The Washington Headquarters
Service concurred with the recommendation and stated that it has authorized two
full-time equivalents in FY 2000 and two additional full-time equivalents in
FY 2001. In addition, the remaining full-time equivalents will be addressed
through the advance recruitment authority.
                                   18
Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) Comments. Although not required to comment on the
recommendation, the Director of Security, Office of the Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence), concurred
and stated that the Defense Intelligence Agency, the National Security Agency,
and the Joint Staff have no appreciable adjudicative backlog.

Defense Security Service Comments. Although not required to comment, the
Defense Security Service concurred with the recommendation.

3.    We recommend that the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence) analyze the impact of the Joint
Personnel Adjudication System implementation, in conjunction with the
Directors and Chiefs of the eight DoD central adjudication facilities, on the
DoD central adjudication facilities’ completion of the increased workload
required by the overdue periodic reinvestigations and determine an
implementation date.

Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) Comments. The Director of Security, Office of the Assistant
Secretary of Defense (Command, Control, Communications, and Intelligence),
partially concurred with the recommendation and acknowledged there would be
temporary workload increases during implementation. The Army, the Navy,
and the Air Force identified additional resources for the central adjudication
facilities; however, the Defense Office of Hearings and Appeals, the
Washington Headquarters Service, and the Defense Industrial Security
Clearance Office are evaluating additional resource requirements. This issue
was to be on the agenda for final discussion at the Joint Personnel Adjudication
System Executive Steering Committee meeting in September 2000.

Audit Response. The Director of Security, Office of the Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence), comments are
responsive. We agree that the Joint Personnel Adjudication System will be a
useful tool to both DoD managers and the central adjudication facilities;
however, the impact of implementing the Joint Personnel Adjudication System
during the increased workload required by the overdue periodic reinvestigations
needed to be thoroughly analyzed. No further comments are required.

Department of the Army Comments. The Army concurred with the
recommendation. The Army stated that unless the Joint Personnel Adjudication
System is delayed beyond the elimination of the overdue periodic
reinvestigations, testing should begin in November 2000, as scheduled.

Department of the Navy Comments. The Navy concurred with the
recommendation.

Department of the Air Force Comments. The Air Force nonconcurred with
the recommendation and stated that the consensus was to continue with the Joint
Personnel Adjudication System implementation schedule because the workload


                                   19
fluctuations will continue for the unforeseeable future and because it is the
personnel security management tool that will assist in determining future
investigative requirements.

Audit Response. Despite the nonconcurrence, the Air Force is participating in
the Joint Personnel Adjudication System Steering Committee, which was
addressing the intent of the recommendation. No further comments are
necessary.

Defense Office of Hearings and Appeals Comments. The Defense Office of
Hearings and Appeals did not comment on a draft of this report. We request
that the Defense Office of Hearings and Appeals provide comments in response
to the final report.
Defense Intelligence Agency Comments. The Defense Intelligence Agency did
not comment on a draft of this report. We request that the Defense Intelligence
Agency provide comments in response to the final report.

National Security Agency Comments. The National Security Agency
concurred with the recommendation and stated that it will continue to work with
the Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) on the impact of the implementation of the Joint Personnel
Adjudication System.

Joint Staff Comments. The Joint Staff concurred with the recommendation.

Washington Headquarters Service Comments. The Washington Headquarters
Service did not comment on the recommendation.

Audit Response. Because the Joint Personnel Adjudication System Steering
Committee, which includes the Washington Headquarters Service, was
addressing the recommendation, no comment is required.

Defense Security Service Comments. Although not required to comment, the
Defense Security Service concurred with the recommendation.

4.    We recommend that the Under Secretary of Defense (Comptroller)
and the Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) review the DoD Components’ budget
submissions to ensure that the DoD budget for FY 2002 and outyears
enables the central adjudication facilities to meet forecasted workload
requirements.

Under Secretary of Defense (Comptroller) Comments. The Director for
Revolving Funds, Office of the Under Secretary of Defense (Comptroller),
concurred with the recommendation and stated that the central adjudication
facilities will be included as part of the overall DoD Appropriation budget
review and the central adjudication facilities' execution plans will be coordinated
with the execution plans provided by the Defense Security Service and the
Office of Personnel Management for processing security clearance
investigations.
                                    20
Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) Comments. The Director of Security, Office of the Assistant
Secretary of Defense (Command, Control, Communications, and Intelligence),
concurred with the recommendation and stated that the review of budget
submissions is already underway.

Department of the Navy Comments. Although not required to comment, the
Navy concurred with the recommendation.

Department of the Air Force Comments. Although not required to comment,
the Air Force concurred and stated that the recommendation should be expanded
to include the designated investigative agencies. The Air Force will monitor
trends quarterly.
Defense Security Service Comments. Although not required to comment, the
Defense Security Service concurred with the recommendation.

National Security Agency Comments. Although not required to comment, the
National Security Agency concurred with the recommendation and stated that on
September 22, 2000, it reported to the Assistant Secretary of Defense
(Command, Control, Communications, and Intelligence) that it needed four
additional adjudicators and additional funding in FYs 2001 and 2002 in addition
to the resources identified by the National Security Agency Central Adjudication
Facility.




                                   21
Appendix A. Audit Process

Scope
    Work Performed. We reviewed the personnel, the resources and requested or
    approved increases, the projected workload increase, the effect of the increasing
    workload, and training requirements at the eight DoD CAFs.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goals, and
    performance measures:

    FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain future
    by pursuing a focused modernization effort that maintains U.S. qualitative
    superiority in key warfighting capabilities. Transform the force by exploiting
    the Revolution in Military Affairs, and reengineering the Department to achieve
    a 21st century infrastructure. (00-DoD-2) Subordinate Performance
    Goal 2.1: Recruit, retain, and develop personnel to maintain a highly skilled
    and motivated force capable of meeting tomorrow’s challenges (00-DoD-2.1)
    FY 2000 Performance Measure 2.1.1: Enlisted Recruiting. (00-DoD-2.1.1)
    Subordinate Performance Goal 2.3: Streamline the DoD infrastructure by
    redesigning the Department’s support structure and pursuing business practice
    reforms. (00-DoD-2.3) FY 2000 Performance Measure 2.3.1: Percentage of
    the DoD Budget Spent on Infrastructure. (00-DoD-2.3.1)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    indirectly related to the Defense Weapon Systems Acquisition, the Information
    Management and Technology, and the Military Personnel Management high-risk
    areas.

Methodology
    To determine the personnel and resource requirements of the eight CAFS to
    process security clearance requests in a timely manner, we interviewed
    personnel from the eight CAFS to determine how they operated. We also
    compared the cases processed for the period from May 1994 through June 2000
    and determined the factors that would affect the CAFs within the next 5 years.

    Use of Computer-Processed Data. We relied on computer-processed data for
    the number of cases that the CAFs receive and adjudicate. We did not perform
    tests of system general and application controls to confirm the reliability of the
    data. We did not establish reliability of the data because there is no other
    source of security clearance investigations to be adjudicated, and DSS cannot
                                        22
identify the cases provided to each CAF for adjudication. We believe that any
error rate would be insignificant to the finding because the number of cases to
be adjudicated is affected by so many factors. Therefore, not establishing the
reliability of the databases will not materially affect the results of our audit.

Audit Type, Dates, and Standards. We conducted this economy and
efficiency audit from May 2000 through August 2000, in accordance with
auditing standards issued by the Comptroller General of the United States, as
implemented by the Inspector General, DoD.

Contacts During the Audit. We visited or contacted individuals and
organizations within DoD. Further details are available upon request.

Management Control Program. We will address the CAFs' management
control program in a later report.




                                    23
Appendix B. Prior Coverage
     During the last 6 years, the Inspector General, DoD, issued six reports; the
     General Accounting Office issued two reports; the Joint Security
     Commission II, the Commission on Protecting and Reducing Government
     Secrecy, and the Joint Security Commission issued one report each on security
     clearance background investigations.


General Accounting Office
     General Accounting Office Report No. NSIAD-0012 (OSD Case No. 1901),
     “DoD Personnel, Inadequate Personnel Security Investigations Pose National
     Security Risks,” October 27, 1999.

     General Accounting Office Report No. NSIAD-00215 (OSD Case No. 2055),
     “DoD Personnel, More Actions Needed to Address Backlog of Security
     Clearance Reinvestigations,” August 24, 2000.


Inspector General, DoD
     Inspector General, DoD, Report No. D-2000-134, “Tracking Security
     Clearance Requests,” May 30, 2000.

     Inspector General, DoD, Report No. D-2000-111, “Security Clearance
     Investigative Priorities,” April 5, 2000.

     Inspector General, DoD, Report No. D-2000-072, “Expediting Security
     Clearance Background Investigations for Three Special Access Programs” (U),
     January 31, 2000. (SECRET)

     Inspector General, DoD, Report No. 98-124, “Department of Defense
     Adjudication Program,” April 27, 1998.

     Inspector General, DoD, Report No. 98-067, “Access Reciprocity Between
     DoD Special Access Programs” (U), February 10, 1998. (CONFIDENTIAL)

     Inspector General, DoD, Report No. 97-196, “Personnel Security in the
     Department of Defense,” July 25, 1997.


Others
     Joint Security Commission II, “Report of the Joint Security Commission II,”
     August 24, 1999.


                                       24
Commission on Protecting and Reducing Government Secrecy, Senate
Document 105-2, “Report of the Commission on Protecting and Reducing
Government Secrecy,” March 3, 1997.

Joint Security Commission, “Redefining Security,” February 28, 1994.




                                 25
Appendix C. Factors Affecting Personnel and
            Resources at Each Facility

                                                        Air
                      Factors                Army Navy Force WHS1 DOHA2 JCS3 DIA4 NSA5
Overdue periodic reinvestigations            Yes        Yes   Yes   Yes   Yes   Yes   Yes   Yes
Periodic reinvestigations                    Yes        Yes   Yes   Yes   Yes   Yes   Yes   Yes
Investigations pending at DSS                Yes        Yes   Yes   Yes   Yes   Yes   Yes   Yes
Investigations by OPM                        Yes        Yes   Yes   Yes   No    Yes   Yes   No
Secret and Confidential requirements
    Investigation change                     Yes        Yes   Yes   Yes   Yes   Yes   No    No
    Navy and Air Force recruits              No         Yes   Yes   No    No    No    No    No
    First-term attrition rates               Yes        Yes   Yes   No    No    No    No    No
Joint Personnel Adjudication System          Yes        Yes   No    Yes   Yes   Yes   Yes   Yes
Defense Clearance and Investigations Index   Yes        Yes   Yes   Yes   Yes   Yes   Yes   Yes
Large percent of workforce to be replaced    Yes        Yes   Yes   Yes   Yes   Yes   Yes   Yes
Insider Threat Mitigation                    Yes        Yes   Yes   Yes   Yes   Yes   Yes   Yes
Additional functions                         Yes        Yes   Yes   Yes   Yes   Yes   Yes   Yes
Issues affecting adjudicative facilities
    Adjudicators eligible to retire          Yes        Yes   Yes   Yes   Yes   Yes   Yes   Yes
    Overtime                                 No         No    Yes   Yes   Yes   Yes   Yes   Yes

1
  Washington Headquarters Service
2
  Defense Office of Hearings and Appeals
3
  Joint Chiefs of Staff
4
  Defense Intelligence Agency
5
  National Security Agency




                                                   26
Appendix D. Insider Threat Mitigation
   The Chief Information Officer, DoD, issued the “DoD Insider Threat Mitigation
   Final Report of the Insider Threat Integrated Process Team,” April 24, 2000,
   for review and comment. The report results from the actions of the Insider
   Threat Integrated Process Team requested by the Senior Civilian Officer of
   ASD(C3I) and contains 60 recommendations. The team’s charter was “to foster
   the effective development of interdependent technical and procedural
   safeguards” to reduce malicious behavior by insiders. The insider is anyone
   who is or has been authorized access to DoD information systems. Inspector
   General, DoD, Report No. 97-049, “DoD Management of Information
   Assurance Efforts to Protect Automated Information Systems,” September 25,
   1997, indicated that, for one set of investigations, 87 percent of identified
   intruders into DoD information systems were either employees or others internal
   to the organization. Two of the six key elements of a strategy to minimize the
   impact of the insider threat are:

          •   Establish trustworthiness – seek to reduce the threat by establishing a
              high level of assurance in the trustworthiness of people, practices,
              systems and programs, and

          •   Strengthen personnel security and management practices.

   The insider threat is to closed systems that process classified information and
   open systems that process unclassified information. The report stated that
   ASD(C3I) must develop a Personnel Security Strategic Plan for determining the
   right mix of investigative, adjudicative and continuous monitoring methods
   needed to maintain an acceptable level of assurance in the trustworthiness,
   reliability and loyalty of the workforce (insider).

   The report makes five recommendations that will directly impact the security
   clearance process.

          •   Create two distinct categories of information technology insider. The
              proposed differentiation is:

                 − Category 1: Positions involving privileged access to DoD
                   information technology systems with the capability to alter the
                   intended operation or proper configuration of the system.

                 − Category 2: Positions involving general access to DoD
                   information technology systems with read/write permissions,
                   and whose incumbents can receive information from, input
                   information to, or modify information on a system without a
                   reliable human review. An alternative would be to make this
                   the “all other” category to include everyone with access to
                   DoD information systems or networks.



                                       27
       •   Establish, as an investigative prerequisite, the requirement for a
           favorable single scope background investigation completed within the
           past 5 years for Category 1 insiders.

       •   Establish, as the investigative prerequisite, the requirements for a
           NACLC associated with access to Secret or Confidential access for
           Category 2 insiders.

       •   Conduct minimum periodic reinvestigations at the 5-year interval for
           Category 1 information technology positions and a 10-year interval
           Category 2 information technology positions.

       •   Mandate completion of minimum requirements prior to permitting a
           Category 1 insider to assume assigned duties.
These recommendations make a Category 1 the equivalent of a Top Secret
clearance or Sensitive Compartmented Information access and a Category 2 the
equivalent of a Secret or Confidential clearance. If implemented, these
recommendations would create the potential of requiring most DoD and
contractor employees without a current Secret or Top Secret security clearance
to obtain the equivalent investigation and adjudication.




                                   28
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Special Programs
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Director, Security
     Deputy Director, Personnel Security
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director (Program Analysis and Evaluation)
General Counsel of the Department of Defense
  Deputy General Counsel, Legal Counsel
  Director, Defense Office of Hearing and Appeals
Director, Washington Headquarters Service
  Director, Directorate for Personnel and Security
      Chief, Consolidated Adjudication Facility

Joint Staff
Chairman, Joint Chiefs of Staff
Director, Joint Staff
Director of Management
  Chief, Joint Staff Security Office
     Chief, Personnel Security Branch

Department of the Army
Secretary of the Army
Chief, Army Technology Management Office
Auditor General, Department of the Army
Commander, Total Army Personnel Command
   Adjutant General, The Adjutant General Directorate
      Commander, Army Central Personnel Security Clearance Facility

Department of the Navy
Secretary of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Director, Special Programs Division, Chief of Naval Operations


                                        29
Department of the Navy (cont.)
Auditor General, Department of the Navy
Superintendent, Naval Post Graduate School
Director, Naval Criminal Investigative Service
  Director, Central Adjudication Facility

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Administrative Assistant to the Secretary of the Air Force
  Director, Security and Special Programs Oversight
  Director, Air Force Central Adjudication Facility
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Intelligence Agency
   Director, Directorate for Administration
      Chief, Counter Intelligence and Security Activities
         Chief, Central Adjudication Facility
   Inspector General, Defense Intelligence Agency
Director, Defense Security Service
   Inspector General, Defense Security Service
   Director, Defense Industrial Security Clearance Office
Director, National Security Agency
   Director, Security Services
      Chief, Personnel Security Analysis
         Chief, Central Adjudication Facility
   Inspector General, National Security Agency
Inspector General, National Imagery and Mapping Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          30
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Select Committee on Intelligence
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Permanent Select Committee on Intelligence




                                       31
Under Secretary of Defense (Comptroller)
Comments




                       33
34
Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence)
Comments




                       35
36
37
Department of the Army Comments




                    38
Department of the Navy Comments




                     39
Department of the Air Force Comments




                     40
41
42
43
                 Defense Security Service Comments
 Final Report
 Reference




Revised page 6




                                    44
National Security Agency Comments

                                     Final Report
                                     Reference




                                    Added page 2




                  45
46
47
Joint Staff Comments




                       48
Washington Headquarters Services Comments




                     49
50
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD,
who contributed to the report are listed below.

Thomas F. Gimble
Mary L. Ugone
Robert K. West
Lois A. Therrien
Sheri D. Dillard
Setranique T. Clawson
Eric G. Fisher
David C. Williams
